<html>
<title> - ASTROBIOLOGY: SEARCH FOR BIOSIGNATURES IN OUR SOLAR SYSTEM AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 ASTROBIOLOGY: SEARCH FOR BIOSIGNATURES
                     IN OUR SOLAR SYSTEM AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2013

                               __________

                           Serial No. 113-57

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-895                     WASHINGTON : 2013
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6205120d22011711160a070e124c010d0f4c">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
CHRIS COLLINS, New York


                            C O N T E N T S

                            December 4, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

                               Witnesses:

Dr. Mary Voytek, Senior Scientist for Astrobiology, Planetary 
  Science Division, National Aeronautics and Space Administration
    Oral Statement...............................................    10
    Written Statement............................................    13

Dr. Sara Seager, Class of 1941 Professor of Physics and Planetary 
  Science, Massachusetts Institute of Technology
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. Steven Dick, Baruch S. Blumberg Chair of Astrobiology, John 
  W. Kluge Center, Library of Congress
    Oral Statement...............................................    27
    Written Statement............................................    29

Discussion.......................................................    35

             Appendix I: Answers to Post-Hearing Questions

Dr. Mary Voytek, Senior Scientist for Astrobiology, Planetary 
  Science Division, National Aeronautics and Space Administration    58

Dr. Sara Seager, Class of 1941 Professor of Physics and Planetary 
  Science, Massachusetts Institute of Technology.................    70

Dr. Steven Dick, Baruch S. Blumberg Chair of Astrobiology, John 
  W. Kluge Center, Library of Congress...........................    75


                 ASTROBIOLOGY: SEARCH FOR BIOSIGNATURES
                     IN OUR SOLAR SYSTEM AND BEYOND

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T6895.001

[GRAPHIC] [TIFF OMITTED] T6895.002

[GRAPHIC] [TIFF OMITTED] T6895.003

[GRAPHIC] [TIFF OMITTED] T6895.004

[GRAPHIC] [TIFF OMITTED] T6895.005

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing titled ``Astrobiology: the 
Search for Biosignatures in our Solar System and Beyond.'' I 
will recognize myself for five minutes for an opening statement 
and then recognize the Ranking Member.
    The search for exoplanets and Earth-like planets is a 
relatively new but inspiring area of space exploration. 
Scientists are discovering solar systems in our own galaxy that 
we never knew existed. As we learn more about these new worlds, 
reasonable questions to ask are: what can we find on these 
planets? Do the atmospheres of these planets provide 
biosignatures that would indicate the presence of some form of 
rudimentary life? And what would be the implications of such a 
discovery?
    The discovery of even microbes on another planet would be 
the most newsworthy story in decades. It could affect the way 
we view our place in the universe and it could create increased 
interest in the core disciplines of astrobiology including 
chemistry, physics, geology and biology.
    The United States has pioneered the field of astrobiology 
and continues to lead the world in this type of research. The 
publication of scientific findings illustrates the field's 
growth and growing popularity in the past 20 years.
    A sample of professional papers published in Science 
magazine between 1995 and 2013 shows significant growth in the 
field of astrobiology. For example, in 1995, fewer than 50 
papers were published on astrobiology. By 2012, that number had 
increased to more than 500. In 1995, fewer than 500 scientific 
reports cited astrobiology, but by 2012, it was almost 12,000.
    Astrobiologists study the atmospheres of planets to 
determine whether or not some of these newly discovered planets 
possess possible signs of life such as microbes or some form of 
vegetation. Scientists believe that such planets would produce 
certain gases in their atmospheres. For example, when examined 
from a distance, Earth's atmosphere contains large amounts of 
oxygen. When looked at through a large infrared telescope, the 
biosignature would be detectable from a distant point in space.
    Using the infrared camera on the Hubble Space Telescope, 
two teams of scientists from the University of Maryland, NASA's 
Goddard Space Flight Center, and the Space Science Telescope 
Institute announced just yesterday that they had found 
signatures of water in the atmospheres of five exoplanets. The 
planets are similar to what are called hot Jupiters, too large 
and gaseous to contain any form of known life. However, the 
techniques used in this case are also being used to examine the 
atmospheres of other planets.
    Future telescopes, including the James Webb Space 
Telescope, the Transiting Exoplanet Survey satellite, and the 
Wide Field Infrared Survey Telescope will help us discover more 
about the atmospheres of exoplanets and whether or not microbes 
or other forms of life could exist there.
    I look forward to hearing how research in astrobiology 
continues to expand this fascinating frontier.
    That concludes my opening statement.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Chairman Smith: Good morning. The search for exoplanets and Earth-
like planets is a relatively new but inspiring area of space 
exploration. Scientists are discovering solar systems in our own galaxy 
that we never knew existed.
    As we learn more about these new worlds, reasonable questions to 
ask are: What could we find on these worlds? Do the atmospheres of 
these worlds provide biosignatures that would indicate the presence of 
some form of rudimentary life? And what would be the implications of 
such a discovery?
    The discovery of even microbes on another planet would be the most 
newsworthy story in decades.
    It could affect the way we view our place in the universe. It could 
create increased interest in the core disciplines that fall under the 
umbrella of astrobiology, including chemistry, physics, geology and 
biology.
    The United States pioneered the field of astrobiology and continues 
to lead the world in this type of research. The publication of 
scientific findings illustrates the field's growth and growing 
popularity in the past 20 years.
    A sample of professional papers published in Science magazine 
between 1995 and 2013 shows significant growth in the field of 
astrobiology. In 1995, fewer than 50 papers were published on 
astrobiology. By 2012, that number had increased to more than 500. In 
1995, fewer than 500 scientific reports cited astrobiology, but by 
2012, it was almost 12,000.
    Astrobiologists study the atmospheres of planets to determine 
whether or not some of these newly discovered planets possess possible 
signs of life, such as microbes or some form of vegetation. Scientists 
believe that such planets would produce certain gases in their 
atmospheres.
    For example, when examined from a distance, Earth's atmosphere 
contains large amounts of oxygen. When looked at through a large 
infrared telescope, this biosignature would be detectable from a 
distant point in space.
    Using the infrared camera on the Hubble Space Telescope, two teams 
of scientists from the University of Maryland, NASA's Goddard Space 
Flight Center and Space Science Telescope Institute announced yesterday 
that they found signatures of water in the atmospheres of five 
exoplanets.
    The planets are similar to ``hot'' Jupiters, too large and gaseous 
to contain any form of known life. However, the techniques used in this 
case are also being used to examine the atmospheres of other planets.
    Future telescopes, including the James Webb Space Telescope, the 
Transiting Exoplanet Survey Satellite and the Wide-Field Infrared 
Survey Telescope will help us discover more about the atmospheres of 
exoplanets and whether or not microbes or other forms of life could 
exist there.
    I look forward to hearing how research in astrobiology continues to 
expand this fascinating frontier.

    Chairman Smith. The gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning, and welcome to our distinguished panel of witnesses.
    There is no denying humankind's interest in establishing 
whether life exists elsewhere in the universe. People have 
probably speculated on that possibility since time immemorial.
    The question of whether there is life beyond Earth got 
increased attention this year following the Kepler Space 
Telescope's discovery of Earth-sized exoplanets in habitable 
zones around other stars, and Curiosity's finding of traces of 
water in the Martian soil.
    Astrobiology, as we will hear during this hearing, is an 
interdisciplinary field that makes use of many fields of 
science to investigate the possibility of life on other worlds.
    As might have been guessed, NASA has played a major role in 
astrobiology's development as a formal discipline. NASA's 
Viking missions to Mars, launched in 1976, included three 
biology experiments designed to look for possible signs of 
life. The scientific excitement generated by the Viking 
mission, new results from solar system exploration and 
astronomical research programs in the mid nineties, and 
advances in the fundamental biological sciences led to the 
establishment of the NASA Astrobiology program in 1996.
    Today, NASA's Astrobiology program consists of four 
elements: grant programs, technological activities aimed at the 
development of new scientific instrumentation, technological 
activities aimed at the field-testing of new scientific 
instruments, and the NASA Astrobiology Institute.
    In addition, astrobiology has become a cross-cutting theme 
in all of NASA's space science endeavors. For example, rather 
than being standalone investigations, many planetary science 
and astronomy missions work together in their search for life 
in the Universe.
    Mr. Chairman, I would be remiss were I not to make note 
that continuing to provide adequate funding to NASA's science 
programs is of critical importance if we are to continue to 
make progress in astrobiology as well as other important 
scientific fields. I hope that Congress recognizes the vital 
contributions of ongoing and future NASA space science missions 
in answering whether there is life in the Universe. This 
hearing is an opportunity to shine light on these 
contributions, and I look forward to hearing from our 
witnesses.
    I thank you, and yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning and welcome to our distinguished panel of witnesses.
    There is no denying Humankind's interest in establishing whether 
life exists elsewhere in the Universe. People have probably speculated 
on that possibility since time immemorial.
    The question of whether there is life beyond Earth got increased 
attention this year following the Kepler space telescope's discovery of 
Earth-sized exoplanets in habitable zones around other stars, and 
Curiosity's finding of traces of water in Martian soil.
    Astrobiology, as we will hear during this hearing, is an 
interdisciplinary field that makes use of many fields of science to 
investigate the possibility of life on other worlds.
    As might have been guessed, NASA has played a major role in 
astrobiology's development as a formal discipline. NASA's Viking 
missions to Mars, launched in 1976, included three biology experiments 
designed to look for possible signs of life. The scientific excitement 
generated by the Viking mission, new results from solar system 
exploration and astronomical research programs in the mid-1990s, and 
advances in the fundamental biological sciences, led to the 
establishment of the NASA Astrobiology Program in 1996.
    Today, NASA's Astrobiology Program consists of four elements--
grants programs, technological activities aimed at the development of 
new scientific instrumentation, technological activities aimed at the 
field-testing of new scientific instruments, and the NASA Astrobiology 
Institute.
    In addition, astrobiology has become a cross-cutting theme in all 
of NASA's space science endeavors. For example, rather than being 
stand-alone investigations, many planetary science and astronomy 
missions work together in their search for life in the Universe.
    Mr. Chairman, I would be remiss were I not to make note that 
continuing to provide adequate funding to NASA's science programs is of 
critical importance if we are to continue to make progress in 
astrobiology as well as other important scientific fields.
    I hope that Congress recognizes the vital contributions of ongoing 
and future NASA space science missions in answering whether there is 
life in the Universe. This hearing is an opportunity to shine light on 
these contributions.
    I look forward to hearing from our witnesses, and I yield back the 
balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    I will now introduce our witnesses. Our first witness is 
Dr. Mary A. Voytek. Dr. Voytek became Senior Scientist for 
Astrobiology in the Science Mission Directorate of NASA 
headquarters in 2008. Dr. Voytek came to NASA from the U.S. 
Geological Survey, where she headed the Microbiology and 
Molecular Ecology Laboratory. Dr. Voytek has served on advisory 
groups to the Department of the Interior, Department of Energy, 
the National Science Foundation and NASA including NASA's 
Planetary Protection Subcommittee. She received a Bachelor's in 
biology from Johns Hopkins University, a Master's in biological 
oceanography from the University of Rhode Island and a Ph.D. in 
biology and ocean sciences from the University of California.
    Our second witness is Dr. Sara Seager. Dr. Seager is an 
Astrophysicist and Planetary Scientist at the Massachusetts 
Institute of Technology. Professor Seager chairs a current NASA 
Science and Technology Definition Team Study of the star shade 
concept for space-based direct imaging to fined and 
characterize other earths. Before joining MIT in 2007, 
Professor Seager spent four years on the senior research staff 
at the Carnegie Institute of Washington preceded by three years 
at the Institute for Advanced Study in Princeton, New Jersey. 
She is a 2013 MacArthur Fellow, winner of the Genius Grant; 
also, the 2012 recipient of the Raymond and Beverly Sackler 
Prize in the Physical Sciences and the 2007 recipient of the 
American Astronomical Society's Helen B. Warner Prize. She 
received her Bachelor's of Science in the Math and Physics 
Specialist Program from the University of Toronto. She also 
holds a Ph.D. in astronomy from Harvard University.
    Our third witness is Dr. Steven Dick. Dr. Dick currently 
holds the Baruch S. Blumberg NASA Library of Congress Chair in 
Astrobiology at the Library of Congress. He served as the 
Charles A. Lindbergh Chair in Aerospace History at the National 
Air and Space Museum from 2011 to 2012, and as the NASA Chief 
Historian and Director of the NASA History Office from 2003 to 
2009. Prior to that, he worked as an Astronomer and Historian 
of Science at the U.S. Naval Observatory in Washington, D.C. 
for 24 years. He obtained his B.S. in astrophysics and M.A. and 
Ph.D. in history and philosophy of science from Indiana 
University.
    We welcome you all and look forward to your testimony, and 
Dr. Voytek, we will begin with you.

                 TESTIMONY OF DR. MARY VOYTEK,

               SENIOR SCIENTIST FOR ASTROBIOLOGY,

                  PLANETARY SCIENCE DIVISION,

                    NATIONAL AERONAUTICS AND

                      SPACE ADMINISTRATION

    Dr. Voytek. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to appear today to 
discuss the topic of astrobiology.
    For thousands of years, humans have looked up at the stars 
and wondered whether life exists beyond our home planet. This 
curiosity was renewed with the latest discoveries by NASA's 
Kepler mission totaling 3,500 new candidate planets outside our 
solar system. With Kepler's help, more than 800 potential 
worlds have now been confirmed orbiting stars other than our 
sun, and at least five of these are Earth-sized and orbiting 
within the habitable zone in each of their stars. This reminds 
us just how important NASA's work is to the understanding of 
the universe and the potential for life beyond our solar 
system.
    A companion question that every child wonders is, where did 
I come from? Astrobiology seeks to answer these enduring 
questions. What is astrobiology? Astrobiology is the study of 
the origin, evolution, distribution and future of life in our 
universe. It addresses three basic questions that have been 
asked in various ways for generations: How does life begin and 
evolve? Does life exist elsewhere in our universe? What is the 
future of life here on Earth and beyond?
    In striving to answer these questions, experts in 
astronomy, astrophysics, Earth and planetary sciences, biology, 
chemistry and many other relevant disciplines participate in 
astrobiology research to achieve a comprehensive understanding 
of biological, planetary and cosmic phenomena and the 
relationships among them.
    This multidisciplinary field encompasses the search for 
habitable environments in our solar system as well as habitable 
planets outside of our solar system. Astrobiology embraces 
laboratory and field research into the origins and early 
evolution of life on Earth, the search for evidence of 
habitability and life on Mars and other bodies in our solar 
system, as well as studies of the potential for life to adapt 
to future challenges both here on Earth and beyond.
    It is a cross-cutting theme in all of NASA's space science 
endeavors. It knits together research in astrophysics, Earth 
science, heliophysics as well as planetary sciences. The NASA 
Astrobiology program is guided by a community-constructed 
roadmap that is generated every five years. The ongoing 
development of this roadmap embodies the composition of diverse 
scientists, technologists from government, universities and 
private institutions. These roadmaps outline multiple pathways 
for research and exploration and contribute to our decisions on 
how our investments might be prioritized and coordinated.
    NASA established its current Astrobiology program in 1996. 
Studies in the field of exobiology, a predecessor to 
astrobiology, date back to the beginning of the U.S. space 
program. We are proud of the results of our 50 years of 
cutting-edge research.
    In the 20th century, astrobiology has focused on a growing 
number of NASA missions. As mentioned earlier, with Kepler's 
mission, we have been able to detect Earth-sized planets within 
the habitable zones around distant stars. These potentially 
habitable planets will expand our search for life beyond our 
own solar system.
    Mars also continues to be an area of interest with the 
Curiosity rover mission currently assessing the potential 
habitability of that planet. In fact, results from that mission 
have already shown that in the past, Gale Crater could have 
supported microbial life.
    However, since Earth is the only known example of an 
inhabited planet, the search for life in the cosmos begins with 
our understanding of life on Earth, so studying the origins and 
evolutions of life on Earth improves our ability to recognize 
and characterize life in its many imagined and yet potentially 
possible forms.
    In 2010, astrobiologists found that a number of microbes 
from Earth could survive and grow in the low-pressure freezing 
temperatures and oxygen-starved conditions seen on Mars. 
Overall, astrobiologists have discovered life in numerous 
extreme environments on Earth such as volcanic lakes, in 
glaciers, sulfur springs. We have also found life in 
extraordinary forms ranging from bacteria that consume 
chemicals toxic to most life to microbes that live under high 
levels of gamma or ultraviolet radiation. These discoveries 
have taught us that life is tough, tenacious and metabolically 
diverse and highly capable to adapt to local environmental 
conditions. Knowledge gained through the astrobiology research 
reveals new possibilities of what else might be out there and 
how we might be able to find and recognize it.
    An example of astrobiology technologies that have proved 
useful for broader application is the Chemistry and Mineralogy 
instrument that was developed for the NASA Curiosity rover. 
CheMin is a highly sensitive instrument that can identify and 
quantify the minerals present in the Martian rocks and is 
currently being used in a commercial spin-off for a variety of 
purposes including hazardous-material identification, mineral 
prospecting, artifact preservation in museums, and even 
detection of counterfeit pharmaceuticals in developing 
countries.
    In conclusion, life is a central theme that unifies NASA's 
Science program, the science of astrobiology aims to achieve a 
better understanding of our own world and the life that it 
hosts. After 50 years, we are now in an era that can finally 
provide data on whether or not we are alone in the universe. 
This is an agenda for inspiring the next generation of 
explorers and stewards to sustain NASA's mission of exploration 
and discovery.
    Again, thank you for the opportunity to testify today.
    [The prepared statement of Dr. Voytek follows:]

    [GRAPHIC] [TIFF OMITTED] T6895.010
    
    [GRAPHIC] [TIFF OMITTED] T6895.011
    
    [GRAPHIC] [TIFF OMITTED] T6895.012
    
    [GRAPHIC] [TIFF OMITTED] T6895.013
    
    [GRAPHIC] [TIFF OMITTED] T6895.014
    
    Chairman Smith. Thank you, Dr. Voytek.
    And Dr. Seager.

                 TESTIMONY OF DR. SARA SEAGER,

               CLASS OF 1941 PROFESSOR OF PHYSICS

                     AND PLANETARY SCIENCE,

             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Seager. Mr. Chairman and Members of the Committee, we 
are truly at a unique time in human history. We stand on a 
great threshold in space exploration.
    On the one side, we now finally know that small planets 
exist and are common, but on the other side lies the 
possibility to find the true Earths with signs of life. The 
point I want to make is, this is the first time in human 
history we have the technological reach to cross the great 
threshold. And as already explained, to infer the presence of 
life on an exoplanet, we will search for biosignature gases, 
which we define as a gas produced by life that can accumulate 
in an atmosphere to levels that we can detect remotely by large 
telescopes.
    The example on Earth is oxygen, which fills our atmosphere 
to 20 percent by volume, but without plants and photosynthetic 
bacteria, we would have virtually no oxygen. So our search for 
biosignature gases is a search for gases that we call it 
``don't belong'' that are produced in huge quantities that can 
be attributed to life.
    And I would like to just say briefly that NASA-supported 
astrobiology has been absolutely foundational in biosignature 
gas research by connecting microbiologists with astronomers and 
geologists and planetary scientists.
    The main point I want to make, a main point, is that we 
will not know if any exoplanet biosignature gas is produced by 
intelligent life, or if it is produced by simple single-cell 
bacteria. Right now we don't have any planets we can study for 
biosignature gases. The Kepler planets, while small, are too 
far away and too faint for any atmosphere follow-up studies.
    NASA's TESS mission, led by MIT and scheduled for launch in 
2017, is a two-year all-sky survey of more than half a million 
bright stars. Now, while TESS will not reach down to the true 
Earths, it will find dozens of rocky planets transiting small 
cool stars.
    The reason we are so excited about TESS is that dozens of 
the TESS rocky planet atmospheres can be studied by the James 
Webb Space Telescope and a few of these planets are likely 
going to be in the star's habitable zone. So while the chance 
for life detection with the James Webb is very, very, very 
small, if life really is everywhere, we actually have a shot at 
it.
    Now, to up our chances of finding life on an exoplanet, we 
need to move to a different kind of planet-finding and 
characterizing technique, because the TESS/James Webb 
combination focuses on a rare type of planet, a transiting 
planet that has to be aligned just so, so it goes in front of 
the star as seen from Earth. That is actually the easiest way 
to find small planets right now, but it is not the best way 
because we need to be able to search all of the nearby sun-like 
stars.
    So direct imaging is the starlight-blocking technique, and 
it is extremely challenging because our Earth at visible 
wavelengths is 10 billion times fainter than our sun. Ten 
billion is such a huge number. This is a massive technological 
challenge.
    But NASA is studying two different direct imaging 
techniques. One is the so-called internal coronagraph, where 
specialized optics are placed inside the telescope, but the 
telescope has to be incredibly specialized to be exceptionally 
thermomechanically stable.
    The other technique is the starshade, that is, putting a 
giant specialized screen tens of meters in diameter and flying 
in formation tens of thousands of kilometers from a telescope. 
The starshade blocks out the starlight so only the planet light 
reaches the telescope. Now, the internal coronagraph is more 
mature, but the starshade is likely our best way to find Earths 
in the new future because the starshade does all the hard work. 
And we can have a simple telescope, relatively simple 
telescope, with a very high throughput.
    I wanted to just briefly give you my vision for how to 
proceed after the James Webb Space Telescope and the TESS 
mission and that is we need a small space telescope mission to 
prove the direct imaging technique and to deliver exoplanet 
science. We need to demonstrate both the internal coronagraph 
and the starshade because we don't know which one will succeed 
on a larger scale and both actually may be needed. The internal 
coronagraph technique right now is under study for 
instrumentation on AFTA/WFIRST. We will be able to observe some 
giant planet atmospheres. The starshade and telescope system 
could be supported under a so-called probe-class category and 
could reach down on a couple of dozen stars for Earths.
    Now, here is the thing. If we want to really be able to 
find planets with biosignature gases, we need hundreds of 
Earth-like planets. We need to search thousands of sunlight-
stars. So for the intermediate future, we will require a large 
visible wavelength telescope with a large mirror exceeding 10 
meters in diameter. So that is a big thing for the future but 
that is what it will really take if we want to up our chances 
of success.
    So I just wanted to briefly say that the level of public 
interest in exoplanets has accelerated literally almost 
exponentially in the nearly 20 years I have been in this field. 
The number of people who approach me on a continual basis from 
high school students to MIT students to other university 
students to literally people all around the world to CEOs of 
small tech companies to retirees, these people aren't just 
interested in exoplanets, they want to work on exoplanets.
    And so I will just close by leaving you with a vision, that 
this search for finding life beyond Earth is so revolutionary, 
it will really change the way that we see our place in the 
cosmos such that we believe hundreds or a thousand years from 
now, people will look back at us collectively as those people 
who first found the Earth-like worlds, and so it could be our 
greatest legacy. We just need to--you know, it is within our 
power based on our near-term decisions and investments to 
actually make this happen.
    So Mr. Chairman and Committee, this concludes my remarks.
    [The prepared statement of Dr. Seager follows:]

    [GRAPHIC] [TIFF OMITTED] T6895.015
    
    [GRAPHIC] [TIFF OMITTED] T6895.016
    
    [GRAPHIC] [TIFF OMITTED] T6895.017
    
    [GRAPHIC] [TIFF OMITTED] T6895.018
    
    [GRAPHIC] [TIFF OMITTED] T6895.019
    
    [GRAPHIC] [TIFF OMITTED] T6895.020
    
    [GRAPHIC] [TIFF OMITTED] T6895.021
    
    Chairman Smith. Thank you, Dr. Seager.
    Dr. Dick.

                 TESTIMONY OF DR. STEVEN DICK,

           BARUCH S. BLUMBERG CHAIR OF ASTROBIOLOGY,

           JOHN W. KLUGE CENTER, LIBRARY OF CONGRESS

    Dr. Dick. Chairman Smith, Ranking Member Johnson and 
Members of the Committee, thank you for the opportunity to 
testify today on the subject of the past and future of 
astrobiology. I do so not as a practitioner in the field but as 
an historian of science who for four decades has documented the 
debate over life beyond Earth. In that role, I can say that 
this is a subject rich in history and promise and one that 
fascinates the American public.
    During my time as NASA Chief Historian, everywhere I went 
people wanted to know about life on other worlds, and they 
still do. Astrobiology raises fundamental questions and evokes 
a sense of awe and wonder as we realize perhaps there is 
something new under the sun and other the suns of other worlds.
    The key discoveries in astrobiology over the last decade 
have evoked that sense of awe and wonder. High on the list must 
be the discovery of planets beyond our solar system, those so-
called exoplanets are the very first goal of the NASA 
Astrobiology Roadmap.
    Ground-based telescopes as well as the Hubble and Spitzer 
telescopes have all contributed to these discoveries, and 
NASA's Kepler spacecraft has opened the floodgates. By the end 
of 2013, almost a thousand planets have been confirmed. 
Thousands more are awaiting confirmation. Smaller and smaller 
planets are being detected including Super Earths and Earth-
sized planets.
    A second highlight is the continued search for life in our 
solar system--goal 2 of the roadmap. A fleet of spacecraft over 
the last decade has demonstrated that Mars had enough liquid 
water in the past to be habitable for life. Spacecraft have 
probed the icy moons of the outer solar system including the 
Jovian moon Europa and the Saturnian moon Enceladus. The still-
ongoing Cassini/Huygens mission has found on the Saturnian moon 
Titan an atmosphere believed to be rich in prebiotic organic 
compounds and lakes of methane on the surface of that 
satellite. And just a few months ago, Cassini captured an image 
of Earth, a pale blue dot against the darkness of space.
    Another of the highlights over the last decade has been to 
demonstrate further the tenacity of life in extreme 
environments--goal 5 of the Astrobiology Roadmap. Life has been 
found in hydrothermal vents deep below the ocean, kilometers 
below the ground, way above the boiling point of water, way 
below its freezing point. The point is that life is more 
tenacious than once thought and so may arise on planets under 
conditions once thought unfavorable. Genomic analysis of these 
microorganisms continues to shed light on how they function.
    Among the critical issues in the search for life in the 
solar system during the next decade will be a continued 
research program on past and present life on Mars, employing 
spacecraft such as MAVEN, which was just launched two weeks 
ago, as well as continued field and laboratory research on the 
origins, limits and future of life on Earth and other planets. 
Beyond the solar system, the challenge now is to classify and 
characterize newly discovered planets as well as the search for 
even smaller ones. Over the next decades, spacecraft such as 
TESS will search for rocky planets and stars, and the James 
Webb Space Telescope will further characterize those planets 
and their potential for life by searching for biosignatures in 
their atmospheres. This is goal 7 of the roadmap.
    I would like to say also that in my view, renewing the 
search for radio and other artificial biosignatures as part of 
the search for extraterrestrial intelligence, SETI, would 
enhance NASA's Astrobiology program and repair the artificial 
programmatic divorce that now exists between the search for 
microbial and intelligent life. No biosignature would be more 
important than a radio signal from another civilization on one 
of those newly discovered planets, perhaps, especially if they 
have something to say.
    In concluding, I would be remiss if I failed to mention 
that among the issues and challenges for the next decade are 
goals related to astrobiology and society. Indeed, the 
Astrobiology Roadmap recognizes as one of its four 
implementation principles a broad societal interest in its 
endeavors. Astrobiology raises profound questions with respect 
to the impact on society. What will be the effect on our world 
views, our philosophies and religions, if we discover microbial 
or intelligent life beyond the Earth? Are there useful 
analogies that will help us to evaluate societal impact?
    History indicates that the discovery, or the failure to 
discover extraterrestrial life, is likely to be an extended 
affair as in the debates over the Viking spacecraft results and 
the ALH84001 Mars rock controversy. These are the kinds of 
societal aspects of astrobiology that I am now studying as part 
of my time at the Library of Congress. Others are also studying 
these societal impact questions, especially in the last five 
years since the NASA Astrobiology Institute has supported a 
roadmap and a focus group on astrobiology and society.
    Finally, let me say that in my view, astrobiology embodies 
the most important ideals of discovery, exploration and 
inspiring our explorers for the next generation. No better hook 
exists in my experience to get students interested in science 
than the tantalizing and interdisciplinary questions of 
astrobiology. I always like to quote Nobelist Baruch Blumberg, 
the first Director of the NASA Astrobiology Institute and the 
inspiration behind the Blumberg NASA Library of Congress Chair 
that I hold now at the Library's Kluge Center, which brings 
together scholars and policymakers. Astrobiology, Dr. Blumberg 
said, is in the best tradition of our species and in the best 
American tradition dating back to Lewis and Clark, to ask great 
questions, to explore our world and other worlds, to infuse our 
culture with new ideas, and to evoke that sense of awe and 
wonder as we discover the true place of our pale blue dot in 
the universe.
    Thank you.
    [The prepared statement of Dr. Dick follows:]

    [GRAPHIC] [TIFF OMITTED] T6895.022
    
    [GRAPHIC] [TIFF OMITTED] T6895.023
    
    [GRAPHIC] [TIFF OMITTED] T6895.024
    
    [GRAPHIC] [TIFF OMITTED] T6895.025
    
    [GRAPHIC] [TIFF OMITTED] T6895.026
    
    [GRAPHIC] [TIFF OMITTED] T6895.027
    
    Chairman Smith. Thank you, Dr. Dick.
    Let me address my first question to Dr. Voytek and Dr. 
Dick. First of all, this is an exciting subject, even an 
inspirational one. It is also, I think worth noting that space 
exploration, including the kinds of exploration we are talking 
about today, attracts bipartisan interest and bipartisan 
support. So, that is nice from the point of view of Members of 
Congress, and also the subject has literally caught the 
public's imagination, and that is something to build on and 
something to encourage as well.
    But Dr. Voytek and Dr. Dick, you both mentioned the 
Astrobiology Roadmap. The last official roadmap was 2008. 
Supposedly there is one every five years. I understand the 2013 
is actually coming out in 2014, May, June or thereabouts. But 
my question is this: when it comes to astrobiology, what should 
be our goals today if you could write the roadmap? Obviously it 
has changed a lot in the last five years but what should be our 
astrobiology goals today? Dr. Voytek?
    Dr. Voytek. So the current roadmap is being developed to 
align--well, to----
    Chairman Smith. What would be your goals?
    Dr. Voytek. My goals would be to better enable the search 
for life outside of Earth, which includes really pushing our 
knowledge base about what is possible for life in general. So 
to extend our research on extreme environments and push it to 
the limit in terms of what kinds of conditions to better 
establish habitability off the Earth.
    Chairman Smith. Right.
    Dr. Voytek. And I believe that we also need to push hard in 
the area of synthetic biology to understand the basic building 
blocks of life to enable a better search strategy for the 
potential types of life. I anticipate that the first life we 
find is likely to be a microbial, relatively simple life form, 
and that it will be essential to know as life did on this 
planet, it made itself from what was around it. It is likely it 
will do the same on other planets, and so we need to be mindful 
of what other possibilities there are.
    Chairman Smith. Thank you.
    Dr. Dick?
    Dr. Dick. Well, aside from what has already been said, I 
would like to see a voyage to Europa to find out what is under 
the----
    Chairman Smith. I would too.
    Dr. Dick. --thick ice, what is swimming around down there 
perhaps, or also out to Saturn with Enceladus and to find out 
more about those water spouts that are shooting out of 
Enceladus. There might be biosignatures there.
    Chairman Smith. I think Europa is already on the list but 
we will have to expedite that.
    Dr. Dick. Right.
    Chairman Smith. Okay.
    Dr. Dick. Also, I would say, as I mentioned, that I think 
it would be great to repair this divorce between microbial--the 
search for microbial intelligent life by including a more 
robust program on SETI.
    Chairman Smith. Okay. Good. Thank you, Dr. Dick.
    Dr. Seager, I like your word ``revolutionary'' when it 
comes to the possible discovery of microbes or other 
interesting forms of life elsewhere on other planets. What I 
wanted to ask you, and you went into some detail as to how we 
might be able to detect these biosignatures, but could you give 
us a hopeful timeline when might this occur? I know that there 
are certain dates for the launches of these various telescopes, 
but some people think we might actually achieve some 
breakthroughs with the devices and the equipment we have today, 
but I just want you to speculate. Do you think in what time 
frame might we expect to find some evidence of, say, microbial 
life elsewhere in the universe?
    Dr. Seager. I always like to start by saying scientists 
never like to speculate. We always like facts.
    Chairman Smith. But you always do.
    Dr. Seager. But we always do. Correct.
    So let us say our input is that every--just for argument's 
sake, if every star has an Earth and every Earth has life, then 
we will find--we have a great chance of finding the first signs 
of it with the TESS/James Webb Space Telescope combination. It 
is likely that it is not that common. We see evidence already 
that not every star has an Earth-size planet in the habitable 
zones, but many do. In that case, we need to go to a direct 
imaging mission in space, and there is no plan on the books for 
that. We have lots of studies going on. If that one could be 
implemented, when it is launched it would take a few years. In 
that case, we also have to be lucky. If it is correct that one 
in five stars like the sun now has an Earth, and every one of 
those has life, then we would be able to find signs of life 
with that relatively small space telescope mission.
    My best guess, if you wanted the honest, very conservative 
answer, if I have to----
    Chairman Smith. Yes.
    Dr. Seager. --come back and be the one who has to hold the 
responsibility for this, I would say we need that next-
generation telescope beyond the James Webb, the big telescope 
in space. So we need to invest in technology now so this can 
actually happen at some point. But once that one goes up, it 
would just be a matter of a few years to survey enough stars 
for planets and find them.
    So I have given you the most optimistic case, somewhat 
unrealistic, that the James Webb finds it. The least optimistic 
case, we need to find out how to put a large mirror in space to 
search enough to have a high enough chance.
    Chairman Smith. Okay. Most optimistic then next five to 10 
years?
    Dr. Seager. Yes, the most optimistic is within a decade.
    Chairman Smith. Okay.
    Dr. Seager. But I don't want to leave you with just being 
optimistic because I don't--you know, we really do need to 
invest in the future.
    Chairman Smith. Right. I understand that. Thank you, Dr. 
Seager.
    My last question is for you all starting with Dr. Voytek. 
What can we do to expedite the process? And that is a pretty 
general question. Some of the answers have probably been given, 
the development of these various telescope, tests and so forth, 
but what can we as Members of Congress do to expedite the 
process? I have a hunch probably the answer is going to be 
funding, but so be it.
    Dr. Voytek. Well, I was going to say continued support. 
Congress and the Administration has provided excellent support 
to the Planetary Sciences Division and Astrophysics and Science 
Mission Directorate in general, and so we need your continued 
support. I know that funding is tough but that is the best 
thing you can do.
    Chairman Smith. Okay. If we make it a priority, we can 
achieve that five to ten year time frame perhaps.
    Dr. Seager?
    Dr. Seager. I would say that keeping our outreach abilities 
in the university system with the experts who are actually 
working on the field is so important. I think people don't 
quite understand how often--you know, you think outreach 
happens maybe at the museum or elsewhere, but as individuals, 
we actually do a huge amount of this, and it is sort of 
inspiring the next generation so we make sure we have that pool 
of people to keep us not only at the forefront of space 
technology but in biology and keeping this interest moving 
along. I think that is the best investment we have.
    Chairman Smith. Great. Okay.
    Dr. Dick?
    Dr. Dick. Aside from funding, I think just the idea that we 
know that Congress is behind the program including, for 
example, the SETI program. I think that we are still seeing the 
repercussions from 20 years ago when that program was canceled, 
and NASA is not forbidden from funding that but they realize 
that Congress has sort of discouraged that 20 years ago.
    Chairman Smith. I think there is more interest today and 
more possibilities today with the discovery of all these 
exoplanets. Thank you, Dr. Dick.
    My time is way over. The gentlewoman from Texas, the 
Ranking Member, is recognized for her questions.
    Ms. Johnson. Thank you very much.
    I guess this question is for all of you. To what extent are 
the interagency and international collaborations important to 
the astrobiology and what, if anything, is needed to facilitate 
that collaboration to maximize the progress and findings?
    Dr. Voytek. I will start with that. The Astrobiology 
program when we established the Institute, part of its charter 
was to explore means to enhance collaboration amongst all 
nations that are interested in the questions that are addressed 
by astrobiology, and we have been very successful in making 
affiliations and collaborations. Each government has brought 
their own resources to bear, and we try to facilitate work 
together because just as it is multidisciplinary, it is also a 
field of study that requires the entire expertise of the entire 
globe really to bring to bear on this. It is a bold question 
that we ask, and it requires everybody.
    Dr. Seager. I will give you just a very specific example, 
we try to collaborate where we can within ITAR for 
international space technology but we have a special example 
coming up, and that is the starshade technology. We may see a 
scenario in a very budget-constrained environment where here in 
the United States we build the starshade. We are leading that 
technology right now. But we get the telescope and launch from 
international partners. So that is a way that we could actually 
accomplish this in the near term.
    So in general, it is often challenging to work with other 
countries for a variety of reasons but in this case we may want 
to figure out how to do that.
    Dr. Dick. Yes. The NASA History Office has just come out 
with a new book on international cooperation with NASA over the 
last 50 years, and it is really an important book, I think, 
because it shows what can be done if we do cooperate. I would 
have to agree with Sara that it has become more and more 
difficult to cooperate, especially because of ITAR, the ITAR 
regulations, and I have been told by people involved that the 
Cassini program, for example, today probably could not be done 
because of the ITAR regulations, which were not in effect 
during the time that Cassini was built.
    Ms. Johnson. Thank you very much. I yield back.
    Chairman Smith. Thank you, Ms. Johnson. The Chairman 
Emeritus of the Committee, the gentleman from Texas, Mr. Hall, 
is recognized.
    Mr. Hall. Mr. Chairman, thank you, and I will tell you, as 
I look at this aggregation of witnesses, you have really done a 
good job. I don't believe I have ever seen so much intelligence 
at one table and so much interest that we have, but I will warn 
you that when I was at SMU, you were the very type of people 
that I didn't like. You ruined the curve for us ordinary 
people. But I always respected you.
    And Chairman, thank you. This is really interesting, and it 
takes me back about 15 years ago when we had a hearing on 
asteroids and found out during the hearing that an asteroid had 
come within 15 minutes of us sometime during the 1980s and we 
didn't know how many jillion miles that was but it sounded kind 
of threatening to me.
    But you have such an interesting study and you seem to be 
so interested in it. I appreciate that.
    I guess my first question is, how would you characterize 
the importance of astrobiology in the general area of STEM 
education that we have gone through and created and worked on 
and nurtured here? Second, how would you motivate students, how 
are you going to get them close to what the other witnesses 
asked? It really should be easy, I guess, to answer but how do 
you motivate students to pursue a career in astrobiology 
research?
    I guess Dr. Voytek, you might give me a quick answer to 
that.
    Dr. Voytek. I think that the topic of astrobiology is so 
exciting and encompasses so many different aspects of science, 
technology and inquiry that we almost have to do nothing but 
present the topic for people to be engaged and excited and kids 
to--I believe it is one of the most exciting areas of research 
for children, and my own experience has been, it requires 
almost no encouragement. It is an inspiration.
    Mr. Hall. Well, I think you have the same problem that we 
have, this Congress has had at the last probably three or four 
Presidents asking them for more money for the thrust in space, 
you know, and if we had had just X number of millions or 
billions, why, we might not be begging Russia for a ride there 
and back up to the Space Station. But you must wake up every 
morning wanting to go to your work as exciting as it is and 
excited as you feel.
    Professor Seager, let me ask you this. You stated in your 
testimony that ``As a Nation, we must continue to be bold in 
our space endeavors so as not to only inspire the next 
generation but also to keep a skilled workforce at the 
forefront of technology.'' Do you feel that we are being bold 
enough or too bold in meeting those goals, or can we be too 
bold in meeting such an important goal?
    Dr. Seager. Well, since you said it first, I will say we 
can never be too bold. As we all know, China is headed to the 
Moon right now as we speak, and we see China as, you know, in 
the academic world, they are great at copying everything but we 
haven't seen them really innovate. But you never know what the 
future holds.
    I will say that most of my students now--and I do work with 
a lot of engineering students--they do not go on in 
astrobiology or exoplanets nor do we want everyone to do that. 
Many of them go out to work in civilian space science or 
civilian industry or even for defense. So recruiting all these 
people through their interest, they want to work on really hard 
problems that have some impact, and you wouldn't know how many 
of these people, they come to work on these problems because 
they loved Mars as a child or, you know, they like the idea of 
searching for life beyond Earth. No, I don't think we can be 
too bold.
    And it is not only inspiring for the public but it draws in 
the people, those very people that, you know, make the curve 
higher. You want them to come and to work on our hardest 
problems for either science or for defense-related technology.
    Mr. Hall. I just don't know how I am going to tell my 
barber or folks in my hometown about your testimony here, but 
you must really enjoy getting up every morning and going to 
work, and I thank you for what I call revolutionary study and 
presentation here.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Hall. The gentlewoman from 
Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to the witnesses. I concur with the comments about how 
inspirational this testimony has been.
    One of the issues that I discussed since I joined this 
Committee early last year was how we could do a better job 
educating the public about the benefits of space exploration 
and research, and I know you have touched on this somewhat, but 
I have to say that particularly now in a challenging budget 
time when all of these things we are talking about have a price 
tag, how do we do a better job? How do all of us do a better 
job with that education?
    And Dr. Voytek, I was pleased to read in your testimony 
about how astrobiology research has benefited everyday lives, 
and you talked about the technology used in the Deepwater 
Horizon accident. Also, there was a mention in the testimony 
about the Mars Curiosity rover, an instrument analyzing art 
that can help with causes of deterioration of artwork. What are 
some of the ways that we can go out and convince a skeptical 
public that we should continue these investments? Please, go 
ahead, and I would like to hear from all of you briefly and 
allow time for one more question.
    Dr. Voytek. Just very briefly, I often discuss our advances 
and our approach to astrobiology and our big questions as the 
search for a cure for cancer. It is a big, extremely important 
question. It is research that has to be done, and even though 
we have made tremendous progress, we haven't yet cured cancer. 
We haven't yet found the origin for life on this planet or life 
elsewhere.
    But I think in the process, we have learned even more about 
ourselves that have led to other improvements in biotechnology 
and biomedicine, and the same is true for astrobiology because 
of the types of questions that we ask, and so in addition to 
the examples that you gave, we also have people working in 
synthetic biology that have come up with new, rapid--technology 
for rapid detection of HIV and hepatitis viruses, so there are 
a lot of advances in biotechnology. Our discoveries have 
revolutionized and made it possible for people to sequence the 
human genome. So there have been a lot of big payoffs as we 
move towards answering these very big questions.
    Ms. Bonamici. Thank you so much.
    Dr. Seager and Dr. Dick, briefly.
    Dr. Seager. I will be brief. I think we need to keep 
hitting home the message that pure science leads to so many 
things like the laser, like the human genome, and we need to 
make that, you know, as clear as possible to as many people as 
possible.
    Ms. Bonamici. Thank you.
    Dr. Dick?
    Dr. Dick. Yes, I have actually edited a volume called 
Societal Impact of Spaceflight, which I recommend to you, and 
another one will be coming out soon.
    There is a lot of talk often about spin-offs but it is not 
just the spin-offs that you have heard here and other places. 
It is also the satellite, the navigational satellites, 
reconnaissance satellites, weather satellites, communication 
satellites. All of those, of course, would not have happened 
without the ability to go into space. And then finally, I would 
say also I find that going around the country, people are very 
interested in how we fit, what our place is in the universe, 
and space exploration helps to solve that.
    Ms. Bonamici. Terrific. And I want to follow up on some of 
the comments that have been made about inspiring and educating 
the next generation, and I know we have heard ``inspiration'' 
used a lot here today and ``being bold,'' and I know Mr. Hall 
mentioned, Dr. Seager, your comment about the skilled workforce 
on the forefront of technology.
    How do we continue to engage young people, especially at a 
young age? And I think if you looked at the panel today, most 
people would think that two-thirds of the women--two-thirds of 
scientists are women, which is of course not. So how do we 
continue to get young people involved? Can you recommend any 
changes to--I am also on the Education Committee--any changes 
to STEM education, efforts to maximize students' interest? We 
are talking about things like incorporating arts and design, 
more hands-on learning. Do you have suggestions about how we 
can engage more students in STEM education? Dr. Seager, I would 
like to start with you.
    Dr. Seager. This is such a huge topic, it would be 
impossible for me to articulate all my thoughts, you know, in 
the time that we have. So I may just say I would be happy to 
talk to you about it at another point. It is a big, big, big 
thing and we really need to do something new and different.
    Ms. Bonamici. Thank you.
    Dr. Seager. I will just say that all children are born 
curious about the world, and somehow that ends up getting 
squashed out of them, and so we really have a problem.
    Ms. Bonamici. Thank you. We will definitely follow up.
    Dr. Voytek?
    Dr. Voytek. I just want to say one thing, and I think Sara 
would agree with me, is that it is extremely important to start 
as young as possible. If you wait to bring science and 
technology to students that are in high school or college or 
even junior high, you have already missed incredible 
opportunities to develop their interest, their curiosity, and 
set them on the path in those sorts of careers.
    Dr. Seager. Yeah, I will just add one more thing. You know, 
children, we all know, we were all one at some point, they love 
dinosaurs. You know, often children love space and planets, and 
we just need to keep that alive and do a better job at it.
    Ms. Bonamici. Thank you.
    Dr. Dick?
    Dr. Dick. A very specific recommendation would be more 
curriculum development. There are a few curricula on life in 
the universe, which, you know, it pulls in everything. One of 
the great things about astrobiology, astronomy, biology, 
chemistry, you can talk about almost anything, and the 
development of specific curricula that could be used in the 
schools I think would be a very good way to start.
    Ms. Bonamici. Thank you so much. I see my time is expired. 
I yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Mississippi, the Chairman of the Space Subcommittee, Mr. 
Palazzo, is recognized.
    Mr. Palazzo. Thank you, Mr. Chairman, and I appreciate our 
witnesses and their testimony today. This is a very exciting 
subject, and I agree with everything that you all presented to 
this panel so far.
    Dr. Seager, I love your comments about we cannot be bold 
enough, and you are talking about investment, and we need to do 
a better job of investing in astrobiology. So could you expand 
on those two? Where would you invest, and if you have a limited 
amount of resources and you had to take from one area to put 
into another area, feel free to comment on that, but also, and 
I may open this up to everybody, is that when you have an 
agency that is so risk-adverse and you throw the word ``bold'' 
out there and being different, how do you reconcile those two?
    Dr. Seager. That is such a great question. I would like to 
have an opportunity to later on perhaps provide a written 
response. But I can try to answer it briefly right now.
    Okay. So in terms of being bold in space, there is a new 
huge thing happening, and that is, we call it CubeSats. They 
are tiny spacecraft that now people all around the world are 
building and launching. Students can do this. So, you know, 
risk can change now because we can launch small things cheaply. 
It wouldn't be very risky with something that is not that 
costly, and in that way you can kind of educate the university-
level people, even down to some special high schools, in a very 
colloquial way--well, so you know, we have other ways we can do 
high risk and generate that.
    The other question I think was about moving money around. 
That one I can't answer. I think I----
    Mr. Palazzo. You can't or don't want to?
    Dr. Seager. Like I said, I would have to give it some more 
thought. But one thing I do want to say is, what makes our 
Nation unique is just our ability to innovate, and that 
innovation is something that we--it is very hard to do because 
you can't always put your finger on what actually it is. You 
can't articulate it in a way that can actually be supported. 
But that is why we ended up, you know, being able to get to the 
Moon. That is why we end up being, you know, a leader in so 
many things, and so that is the thing I would try to however 
possible keep that alive, keep that really, really moving 
forward here in America.
    Mr. Palazzo. And if Dr. Voytek or Dr. Dick would like to--
--
    Dr. Dick. Let me just bring up human spaceflight. When I 
was a kid, I was told that we would be on Mars with humans by 
1984. Obviously we didn't make it. But I do believe that we 
should have as a long-term goal to go to Mars, or at least as 
an initial goal, the moons of Mars. The moons of Mars were 
discovered just a few blocks from the White House at the Naval 
Observatory so there is sort of a peculiar American interest in 
the moons of Mars, which are just a few thousand miles above 
the surface of Mars and would be a great reconnaissance sort of 
natural satellite space station for looking at Mars. So I 
believe we should push towards Mars, maybe the Moon first again 
and then Mars.
    Dr. Voytek. I would actually like to take an opportunity to 
focus mostly on missions and exploration. I think that the 
important thing of our research program in the Science Mission 
Directorate is that we actually are able to take risks because 
the investments aren't on the order of millions and hundreds 
and millions and billions of dollars to do exploration. We can 
explore lots of these questions on Earth for, you know, a tenth 
of that cost, and we are bold and we do take risks and 
sometimes it pays off tremendously and sometimes we make 
mistakes, but we try because, again, this is a bold question, 
we are bold with our scientific portfolio and the research 
programs.
    Dr. Seager. I did think of one thing to add, and that is 
the sort of rise of the, we call it just the private commercial 
spaceflight world like SpaceX. I think the risk now can be 
transferred to them in a way, still with some level of NASA 
support, you know, when you are supporting them going to the 
Space Station and things like that.
    Mr. Palazzo. Real briefly, I will try to get one more 
question out.
    You know, we talk about budgets up here on Capitol Hill. 
Our Nation is definitely in a financial crisis, and we continue 
to fight amongst each other over shrinking discretinary budgets 
when the largest driver of our deficit and our debt is 
mandatory spending. So we have to come to terms with that.
    But when you have got such great programs like this in 
competition and national security doesn't actually seen to 
propel Congress, or this Administration, to act in the best 
interests of the Nation anymore, what would you think would 
trigger us to focus more on exploring Earth-like planets and 
getting more engaged in astrobiology?
    Dr. Seager. Well, one thing that would help is making that 
very strong message that it is legitimate science now. You 
know, we are not like searching for aliens or looking for UFOs. 
We are using standard astronomy. We are using models that have 
been used for Earth's atmosphere and planetary atmosphere. So I 
think making that message that it is really a legitimate field 
of research is one of the critical aspects.
    Dr. Dick. And just the very idea of exploration. I think 
astrobiology embodies the American ideal of exploration, and I 
think that really is a goal enough, to inspire the young people 
and the citizens.
    Dr. Seager. The one thing that sometimes is very hard to 
see and communicate is, it is really a long-term investment in 
our national security and we see it even in industry that 
civilian space science is like a way you can do stuff openly, 
and so that is--it is very hard to communicate very, very long-
term investment but that is essentially what you are doing 
here.
    Mr. Palazzo. I see my time is expired. I yield back. Thank 
you.
    Chairman Smith. Thank you, Mr. Palazzo. The gentleman from 
California, Dr. Bera, is recognized.
    Mr. Bera. Thank you, Chairman Smith, and I will reiterate 
what everyone on the Committee has already said, fascinating 
subject.
    As someone who trained in biology and then went to medical 
school, I think, Dr. Seager, you touched on, we are all born 
with this natural curiosity from the youngest of ages--where 
did we come from, where are we going, the origins of life, 
whether it is on the scientific realm, whether it is in our 
faith-based traditions, and so forth. It is naturally innate to 
who we are as human beings.
    So we don't have to rediscover this. Our children have this 
naturally. What we have to do is grow that curiosity, and in 
order for that to grow, we have to dream big. I mean, for those 
of us who grew up in the 1960s and 1970s with the Space Race, 
there was a dream. We didn't know how we were going to get to 
the moon. We didn't know the technologies it would take us, yet 
we dreamed about going there. And we have got to recapture that 
American spirit, of dreaming big, of not knowing how we are 
going to make this discoveries but truly committing ourselves 
to making these discoveries so that our children, so those next 
generations of scientists have this natural curiosity. And we 
can't be limited by saying, oh, we don't have the money here, 
or yes, we have got financial limitations, but we still have to 
learn how to dream first and then we can work within those 
limitations to say what is the best way to use those resources. 
So that wasn't a question. That was more of a comment.
    The question is, when we are looking at the origins of 
life, when we are looking at the future of worlds and how that 
affects our own planet, these are beyond country borders, these 
are beyond nationalities, these are beyond faith traditions. 
What can we do within the context, you know, if another country 
happens to discover evidence of life on another planet? We are 
all going to benefit from that discovery, and it is going to 
propel us forward.
    What is the context where we can work together, because we 
are talking about big data sets. We are talking about analyzing 
major data sets. What context at the international level would 
you like to see in terms of collaboration in the search for 
life? Dr. Voytek?
    Dr. Voytek. I would say that we attempt with all missions 
that are being planned by space-faring nations that we can 
collaborate with them, either contributing personnel or 
instruments, so we have a very good relationship with ESA, and 
they have flown instruments on our vehicles and spacecraft; and 
the counter is we have flown as well so their ExoMars mission 
that is planned to launch in 2018, we have an instrument 
onboard.
    Our plan for 2020 is to bring back samples. We are 
already--we have been working with the international community 
to figure out how to share the results and participate together 
in the analysis of those samples. I think that, you know, we 
have ITAR restrictions but, you know, scientists--science is an 
area that crosses boundaries pretty easily. There is a natural 
curiosity, and our scientists are doing a lot of the work for 
us.
    Mr. Bera. Dr. Seager, let us say we do build this next 
generation of telescope. Again, we are going to--we will be 
bringing in massive amounts of data and it will take a lot of 
eyes and a lot of analysis. I know in other aspects, we have 
allowed those amateur astronomers and the public to go out 
there and look at this data. Again, that is a way of even 
getting high school students, elementary school students 
looking at this, imagining things. What are some contexts in 
which we can do that again, bring in the entire planet?
    Dr. Seager. Well, I would like to address it from a 
slightly different view, and I think it is great for scientists 
to interact internationally because we don't have a political 
agenda as scientists. But I think when it does come to space 
technology, it is just--this is my personal opinion--it is so 
much more efficient because we don't have this extra layer of 
bureaucracy and inefficiency to do it all ourselves here in 
America. However, if the budget realities and practicalities 
don't allow it, then I support the international cooperation in 
space technology.
    In terms of the big data that is public like the Kepler 
data, for example, any one of us here, we can download the 
data, we can look at it all around the world. I think that is 
really great, and that does make the world come together in a 
unique way.
    Mr. Bera. Dr. Dick, did you want to add anything?
    Dr. Dick. I would just say that it very much depends on the 
scenario when you are talking about international cooperation, 
whether it is microbial life or intelligent life and the 
implications of finding that. There are various international 
organizations that can be worked through like the International 
Academy of Astronautics, and there is work being done on what 
we should do if--and what the impact would be if either 
microbial or intelligent life would be found.
    Mr. Bera. Great.
    Dr. Voytek. Let me say one more thing. I want to reiterate 
a point that you brought up, which citizen science is 
incredible. I think it is a way to engage the public. I think 
we have shown in astronomy, in particular, how it is a tapped 
workforce that has done tremendous scientific work for us, and 
I think particularly with telescopic data that we will continue 
to use it in the future and maximize it. It has been awe-
aspiring to me to see how people have just gotten involved and 
are planet hunters themselves. I think the public is dying to 
get involved even more.
    Mr. Bera. Great. Thank you. I yield back.
    Chairman Smith. Thank you, Dr. Bera. The gentleman from 
Florida, Mr. Posey, is recognized for his questions.
    Mr. Posey. Thank you very much, Mr. Chairman, and thank 
you, witnesses. It is fascinating testimony, fascinating 
written testimony. I hated for it to end actually. I wish you 
could have added some more pages to your testimony. It is fun 
to read, very enjoyable. I think, you know, you pretty much 
indicated that life on other planets is inevitable. It is just 
a matter of time and funding. Clearly, that is it.
    If our species survives long enough and I wonder, a 
question to the three of you, what you see as the greatest 
dangers to life on Earth.
    Dr. Dick. Well, we have had the recent experience of the 
fireball over Russia. I would have to say that the asteroid 
impacts are a danger. There is a range of material coming in. 
We are in a pinball machine and we are in outer space. And you 
have all this material coming in and occasionally a larger one 
comes in, as over Russia, but it is entirely possible, as 
evidenced by some of the craters on the Earth, the ones that 
wiped out the dinosaurs, they happened over much longer periods 
but I believe that's one of the motivations for human 
spaceflight is to get at least some of us off the Earth in case 
there is a catastrophic event such as that.
    Dr. Seager. Well, we do like to believe with, you know, 
sort of the--in the current--we do like to think with our 
current resources of monitoring asteroids that we will find 
something big before it finds us, but that is certainly an 
important area to keep up.
    If I can give my personal opinion, I think overpopulation 
of our planet is going to be our biggest problem.
    Dr. Voytek. I would say with all systems that resources, 
particularly essential resources, can be limiting and so I 
think as we look other places for alternative energy or other 
means to support a large population, that that is a threat to 
our planet.
    Mr. Posey. Okay. You know, conditions on other planets are 
going to seem harsh at first, and we know in history conditions 
on planet Earth have been harsh. If we came here or explored 
Earth 64 million years ago, we would say wow, it is too cold, 
and if we were 65 million years ago we might say wow, it is too 
hot. So I guess there is going to be windows of opportunity on 
the other planets too. Any comment on that?
    Dr. Dick. Well, it is one of the great things about this 
research being done just in the last two decades on life in 
extreme environments, just how tenacious life is, you know, in 
extreme temperatures and under the oceans in these hydrothermal 
vents at extreme temperatures and pressures. You find not only 
microbial life but these long tube worms. I mean, it is just 
amazing. It seems wherever conditions are possible and by 
conditions, I mean, a much broader range than we used to have, 
that life does arise and arise fairly quickly.
    Mr. Posey. Okay.
    Dr. Voytek. I would say that we talk about life in extreme 
environments, and I will note that it is mostly microbial, and 
it is mostly extreme by our own reference. So it is an 
anthropocentric definition of what is extreme because in fact 
we have had the capability to inhabit warm places, cold places 
because of our technology. We basically bring everything back 
to conditions that support a comfortable life for humans, and 
so exploration, colonization on other planets and harsh 
environments will require that we do the same. We are not going 
to suddenly develop the capability to live at, over the 
temperature of boiling water. We will have to make our local 
environment hospitable to ourselves, and we have that 
technology now.
    Mr. Posey. Dr. Seager?
    Dr. Seager. I am going to defer on that question.
    Mr. Posey. Okay. What do you believe was the highest 
historical temperature on the surface of Earth prior to the 
extinction of the dinosaurs, Dr. Dick?
    Dr. Dick. It is hard to say. That is not my area of 
expertise. But I can say that on Venus, for example, the 
temperature is now 900 degrees Fahrenheit with sulfuric acid 
rain and very harsh conditions, and Mars, of course, is much 
colder now than the Earth. So one of the goals of astrobiology 
is to try and figure out how planets that seem to be so similar 
in the past have diverged.
    Mr. Posey. Dr. Seager?
    Dr. Seager. One thing I always tell my students is that 
every day is like a Ph.D. defense. So I actually don't remember 
that number off the top of my head.
    Mr. Posey. Okay. Dr. Voytek?
    Dr. Voytek. Ditto. Except that, as you mentioned yourself, 
Earth has experienced extremes in environmental conditions from 
the early formation, and so certainly environmental conditions 
well beyond the limits of human life.
    Dr. Seager. But these changes do happen very slowly, and we 
believe that life will adapt.
    Mr. Posey. Thank you all very much for your testimony. Mr. 
Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Posey. The gentleman from 
Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Thank you, Mr. Chairman. I find this topic 
fascinating.
    I have a question that I may ask all of you but I want to 
ask Dr. Seager first. If you were king for a day and could 
offer an X-Prize for something in your field, what would it be?
    Dr. Seager. It would be for finding the nearest Earth-like 
planet, you know, around the star that is closest to our own 
planet. So I will try to answer that one more time in a more 
clear way.
    Mr. Massie. Yes.
    Dr. Seager. You know, we would like to know just sort of as 
a legacy for the future which of the very, very, very nearby 
sun-like stars have a planet that is like Earth with habitable 
conditions and surface liquid water required for all life as we 
know it. So I would offer that prize for being able to find 
that. That would have to be a prize that was sort of on the 
order of billions, not just millions.
    Mr. Massie. Okay. And Dr. Dick, what would you----
    Dr. Dick. I am going to stick with Europa, I think, because 
it is less than a billion miles away, and if we could offer a 
prize for somebody to get there and find a way to drill down 
below the ice, we don't know exactly how thick it is but that 
would be a feat in itself if we could drill down through that 
ice and see what is below the ice.
    Mr. Massie. And Dr. Voytek?
    Dr. Voytek. I am going to pick Enceladus. I would like to 
offer a prize for somebody to go sample the plumes.
    Mr. Massie. Okay. Thank you.
    And so Dr. Seager, you mentioned a starshade, and this 
captured my attention and imagination. So is this something 
that would be deployed in space? Could you describe that just--
--
    Dr. Seager. Yes. I didn't mention that. Pretty much we do 
need to go up to space to get above the blurring effects of 
Earth's atmosphere. Now, the starshade is something that has 
been in development for a number of years supported by NASA. 
The concept actually was first written down in the 1980s by a 
French physical optics researcher. So would you want me to just 
elaborate on the starshade?
    Mr. Massie. Yes, maybe 30 seconds.
    Dr. Seager. Okay, sure. So first of all, the starshade does 
have heritage from large radio-deployables in space, okay? 
Those are like 20-meter structures that unfold into a parabolic 
shape. A starshade is a flat shape. It is not a circle or a 
square because that has--light will go around the edges and 
just cause problems. It has to be very specially shaped. It 
ends up looking like a flower. Okay. Now, demonstrations have 
been in the lab of how you would fold up the petals, how they 
would unfurl, and they have to be--the petals have to be made 
very, very precisely because remember, we have to block out the 
starlight to basically better than a part in ten billion.
    Now, the starshade would essentially just be like, you 
know, looking at a single light and blocking it with your hand, 
and the starshade would have to fly far away from a telescope. 
You could actually use any type of telescope. Now, this just 
can't go in any orbit because formation flying is tricky and so 
you really want to get away from Earth, either in an Earth-
trailing or Earth-leading orbit or at what we call L2. So the 
starshade is--it has been under development and it is ongoing.
    Mr. Massie. So you have to pick a light to block, Right? So 
you would----
    Dr. Seager. Correct.
    Mr. Massie. --place some bets on a star?
    Dr. Seager. Well, so we are now in this Committee that I am 
chairing, the Science and Technology Definition Team, we are 
spending a lot of time on that exact question. And so the 
question really is, which stars are you going to go to, because 
you can move the starshade around the sky or around in space or 
the telescope can be moving around. You know, there is sort of 
a scenario where you send up two or three starshades. You 
always have something going on. There is a scenario where as 
the starshade is making its way to another--you know, to line 
up with another star, your telescope is going to be like a very 
new version of Hubble and doing general astrophysics. So yes, 
that is a problem but it is not a limiting problem.
    Mr. Massie. And that would--you would be leveraging the 
Hubble so----
    Dr. Seager. So we wouldn't use the Hubble in this case, 
only because Hubble is in low-Earth orbit and Earth's reflected 
light is a problem as is Earth's gravity for formation flying. 
But we could essentially use even--I don't want to use the 
word, you know, ``any old space telescope'' because it is still 
a problem, but the telescope doesn't have to really be special 
in any way. It just has to be in the right orbit.
    Mr. Massie. And is there some sort of--I know in itself the 
concept is bang for the buck but is there within that a bang 
for the buck version of it that you could do that would prove 
its concept or give some quick results for----
    Dr. Seager. I mean, this is something we have definitely 
thought a lot about and because of the scaling issues like, you 
know, showing it--okay. It is difficult to do anything in space 
except the real thing because to demonstrate on the scales 
required and to get, you know, that one in ten billion, really 
the real thing. However, there are many things that we can do 
just on the ground and that are ongoing and need to continue 
like we call it subscale, smaller versions, demonstrations in 
the lab. There is, you know, testing in the outdoors. You have 
to go many kilometers separated. So there are things that we 
can do. But the problem of finding Earth is so hard, there is 
really no easier, cheap way to actually do it.
    Mr. Massie. Thank you.
    And Dr. Dick, in my last few seconds I would like to touch 
on something that you mentioned in your opening testimony is 
reconnecting that gap between SETI and astrobiology, or it 
looks like astrobiology has kind of subsumed that space. What 
is the state of SETI right now?
    Dr. Dick. Well, objective 7.2 of the Astrobiology Roadmap 
does mention biosignatures of technology, which technically is 
SETI but I think the problem is that NASA does not really 
support that with funding based on the termination of the SETI 
program by Congress 20 years ago. So if Congress would wish to 
get SETI going again with some, with even a little bit of 
funding, that would be an important addition, I think, to 
astrobiology because right now it is really an artificial 
separation. We are looking for microbes, but after that, we are 
not looking for intelligence with the NASA program.
    Mr. Massie. Great. Thank you very much. Yield back.
    Chairman Smith. Thank you, Mr. Massie. The gentleman from 
Texas, Mr. Veasey, is recognized for his questions.
    Mr. Veasey. Thank you, Mr. Chairman.
    I have a question for Dr. Voytek, specifically about oil 
and gas exploration, and your thoughts on--if you think that it 
is practical that some of the technology that is being adapted 
can be specifically used to detect leaks at great depths as it 
pertains to oil and gas exploration, particularly offshore.
    Dr. Voytek. Yes. So one of the examples I gave in my 
testimony was a technology that was developed at Woods Hole 
Oceanographic, and it was a combination of an autonomous 
vehicle and a mass spectrometer that could detect hydrocarbons, 
and it was used to identify and map the leak from the Deep 
Horizon spill. Its original design for the Astrobiology program 
was to try to search for the source of biogenic gases and 
chemicals, so to identify the sources in the deep sea from 
hydrothermal vents and, say, the production of methane or 
hydrocarbons that were produced by microbes. So, I think that 
that was a great example of that technology being adapted to a 
very important environmental problem.
    Mr. Veasey. Thank you.
    Do you want to add something? You looked like you wanted to 
add something, Dr. Dick? Okay.
    I did have a question for you, Dr. Dick, specifically about 
the emergence of astrobiology and how you thought that NASA's 
early initiatives such as the Viking landers on Mars affect the 
evolution of research at NASA related to the search for life in 
the universe.
    Dr. Dick. Well, the Viking experiments had a great impact, 
I think. The biology experiments were three biology 
experiments, and one of them--one of the principal 
investigators to this day believes he found biology on Mars but 
the gas chromatograph's mass spectrometer found no organic 
molecules on Mars which means you if you don't ever get any 
molecules, you can't have life. So that sort of put a damper on 
the Mars program for a while. I think it was something like 15 
years at least before we went back to Mars with another 
spacecraft. So those kinds of things really can have an impact. 
But now with the rovers that we have, including Curiosity, are 
looking for those organic molecules. They haven't found any 
complex organic molecules, maybe some very simple ones, but of 
course, we have only looked in very specific places. So those 
specific kinds of events in the development of astrobiology can 
have a great effect as in the case of the Mars rock ALH84001 in 
1996. I think that gave a great spur to astrobiology, the 
development of astrobiology over much broader program than the 
old NASA exobiology program which was pretty much limited to 
origins of life, and that is the astrobiology program that we 
have today.
    Mr. Veasey. And speaking of that, how does that history 
sort of inform planning for the next decade of astrobiology 
research?
    Dr. Dick. Well, I think if we find anything on Mars in the 
nature of organic molecules or other things like that, history 
tells us that that would have a great impact on funding for the 
future. So we are all hopeful that such things will be found 
aside from all the other interesting things that those rovers 
are finding.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Veasey. The gentleman from 
Illinois, Mr. Hultgren, is recognized.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here. This has been very helpful and very interesting.
    I also have the privilege of serving as one of the co-
chairmen along with my colleague, Mr. Lipinski, who was unable 
to be here today, of the STEM Caucus, and all of us, every 
Member of Congress that I speak with, is passionate about how 
do we get young people interested in science and technology and 
space and engineering and mathematics, and clearly this field 
that you all are talking about is, I think, a great avenue to 
get young people interested.
    One question I would have for you of getting into that is 
when--looking back in your own history, when was the first time 
you really were interested in this and kind of made the 
decision, this is what I want to do personally?
    Dr. Seager. You know, my first memories are about the Moon 
and stars, but it wasn't until much--so the seed gets planted 
early but it wasn't until much later, maybe my late teens, that 
I realized it was a career choice.
    Dr. Dick. I grew up in rural southern Indiana, where it was 
very dark, so the night sky is what inspired me to start with 
it from a very young age and it just grew from there, and I 
would have to say also I was very much influenced by science 
fiction. One of the things I found when I worked at NASA is, a 
lot of people in NASA were inspired by science fiction, and 
those novels about, you know, life on other planets and that 
sort of thing. So for me, it was from a very early age.
    Dr. Voytek. And for me, my father was a physician and he 
gave me his medical school microscope when I was about seven, 
and I started exploring my backyard and the streams and the 
refrigerator and the food and saw that life was everywhere. 
Everything was moving. It was kind of scary for my diet but it 
set me off for my natural interest in how life persists on our 
planet.
    Dr. Seager. One thing you will find from most scientists 
is, there is one special individual who helped them along. In 
some of our cases, it was a parent. Let us face it: most kids 
in America, your parent is not a scientist or a doctor. And in 
that case, it is a teacher. So we need to have a better way 
to--I mean, we would all like to see teachers be like the best-
paid people in the country to recruit the people who are really 
the very best, but we really need to find a way to reach the 
teachers. Our children are just spending, you know, so much of 
their waking hours in school. Everyone needs to encounter that 
one special person to enable them.
    Mr. Hultgren. I absolutely agree, and that was really where 
I wanted to go next is, the idea is, much of this is sparked 
grammar-school age, so, you know, maybe up to 6th grade, 7th 
grade, 8th grade, maybe a little bit later in high school when 
you really see, hey this is something I could pursue. Part of 
the challenge is, I think a lot of teachers are intimidated, 
certainly when you start talking about astrobiology. That would 
be something for a 4th-grade teacher to have to inspire kids. 
That would be intimidating. And so any ways that we can be 
providing resources to teachers I think is so important, or 
even bringing in people like yourselves to be talking to young 
people to let them know how exciting this is and how their 
generation could be the generation that makes this great 
discovery. It could be one of them, and how exciting that would 
be to do that.
    So any way that--suggestions you have and really did want, 
Dr. Seager, to take you up on your offer of a follow-up of 
talking about education----
    Dr. Seager. Yes. Well, I just want to offer three comments. 
The first comment is that unfortunately, our education system 
here in America including universities is the same as it has 
been for hundreds of years.
    Mr. Hultgren. Yes.
    Dr. Seager. Number two, children, as you know, they love 
their--the ones that have iPad or the Internet. The whole big 
data social media thing is something that could actually be big 
in schools where the teachers are not up on things. The third 
thing I keep repeating is, it is very hard for us here to have 
the long-term investment. The long-term investment is to change 
the culture for our university undergraduate educated people 
that they can and should be teachers at the elementary level.
    Mr. Hultgren. Well, and I do think this is the type of 
thing--you know, again, there is a disconnect with, we want to 
have, you know, great education for our kids. We also struggle 
with limited resources that we have got, how do we figure out 
compensating teachers, getting the right people there, bringing 
people from the outside who aren't necessarily certified but 
can inspire to be engaged in the classrooms while bringing 
business, bringing our laboratories, bringing NASA, every 
possible way whether through technology or otherwise. You are 
right, I mean, the door is open like it has never been before 
to get that into the classroom but we have just got to do it.
    Let me switch gears real quickly because, Dr. Seager, I 
want to ask you a little bit more about the-- you mentioned the 
coronagraph--is that right?--and then also the starshade, and 
you also mentioned collaborating with the international 
community as a cost-savings measure on that. I wonder if there 
is any other countries that are doing work in those specific 
areas that we should be aware of and has collaboration on such 
projects already been discussed in the scientific community, 
and how can we encourage that or push it forward?
    Dr. Seager. Well, I would say that it is in ESA in Europe. 
In the past when we were supporting a so-called terrestrial 
planet finder mission, we did have an agreement with the 
Europeans. I forget the other part of your question.
    Mr. Hultgren. Well, it was just if there is--so it sounds 
like Europe is open. Has that already started?
    Dr. Seager. So Europe has recently made their choice for 
their next big missions in the coming decades, and they did not 
choose anything in exoplanets.
    Mr. Hultgren. Okay.
    Dr. Seager. I think that really just means the door may be 
open for an international collaboration.
    Mr. Hultgren. Okay. Part of our challenge--I am way over--
but I think it is frustrating when we have try and have these 
international collaborations when we are running on CRs, where 
we literally don't know month to month if we are going to fund 
programs. Somehow we have got to get back to regular order. We 
have got to get back to, I think, specifically with science is 
pull it out of this year-to-year funding, worse, month-to-month 
funding.
    What I hear is, every other nation has five-year, ten-year, 
twenty-year fully funded science budgets. When we come and talk 
to them about collaboration, oftentimes they will laugh back at 
us because they know we don't even know what is going to happen 
after January 15th because that is when the C.R. expires. So we 
have got some big struggles, would love to have your help on 
all of these suggestions you would have for us to move forward.
    My hope is that you get a sense that there is a desire, 
that we are excited about this and we want to work with you and 
want your help to do this well.
    So with that, thanks, Chairman, for your graciousness, and 
I yield back.
    Chairman Smith. Thank you, Mr. Hultgren. The gentlewoman 
from Illinois, Ms. Kelly, is recognized for her questions.
    Ms. Kelly. Thank you, Mr. Chair, and going along with my 
colleague from Illinois, my question is, I started a STEM 
academy in my district, but my question, all due respect, Dr. 
Dick, how do we get more women and minorities involved? Because 
it seems like, you know, we need so many more women represented 
and minorities in the field, particularly African Americans. 
Are there any best practices anywhere?
    Dr. Dick. Well, I know that NASA Astrobiology Institute 
does have summer workshops both for students and for the 
teachers. I am not sure exactly how you encourage the women and 
minorities to get involved in that, but I am sure the program 
could be expanded and in that way you might get more, but I 
would have to think about it more.
    Dr. Voytek. Maybe I can speak to our programs. The 
Astrobiology program actually has a minorities program and we 
are working with the United Negro College Fund to teach the 
teachers, and a cascade effect of training and providing role 
models for students, so that they can see that this is 
something that I can do. So one of the things that we do is 
this minority institute program, which brings in scientists to 
work side by side with other astrobiologists, and they are 
encouraged to develop curricula to take back to their 
universities, and we work very closely with Historical Black 
Universities and other minority-serving institutions.
    We also have internships that focus on underrepresented 
groups, and I would be happy to share with the Committee all 
the work that we have done up until this point in astrobiology, 
both with missions and just within our own program, that target 
curricula development, workshops for teachers and how--the 
efforts that we have made to make astrobiology part of a STEM 
approach.
    Dr. Seager. I will just be brief and say we just need role 
models. You need children to be able to see people in their own 
community and schools that plants deeply in their mind, oh, I 
can be like that. I think that is a big thing. And then we need 
to change the culture at the higher institutions so that it is 
okay to be different initially, and then we need critical mass 
so there is no difference.
    Ms. Kelly. I definitely agree with that. We work with 6th, 
7th, 8th graders, and they don't even realize what the 
possibilities are until we expose them to the possibilities, 
and they are so thrilled with what we are doing, but it is just 
that we have to move it from school to school. We can't just 
keep coming back to the same students.
    Thank you so much. Yield back.
    Chairman Smith. Thank you, Ms. Kelly. The gentleman from 
Texas, Mr. Weber.
    Mr. Weber. Mr. Chairman, I have no questions.
    Chairman Smith. Oh, well.
    Mr. Hall. Mr. Chairman, I would like to ask one question on 
behalf of the whole Republican and Democrats.
    Chairman Smith. Of course.
    Mr. Hall. Do you think there is life out there? You know, 
are they studying us, and what do they think about New York 
City?
    Dr. Seager. Well, let me just say that in our own Milky Way 
galaxy, there are a hundred billion stars, and we now believe 
in our universe we have more than a hundred billion galaxies. 
So if you just do the math, the chance that there is a planet 
like Earth out there with life on it is very high.
    Mr. Hall. I didn't do the math. There is three things about 
math I couldn't do, and that is add and subtract.
    Dr. Seager. Well, if we had more time, we could work it 
out. But let us just say that the chance for life is very high. 
The biologists never like us to speculate in that way, but the 
real question really is, you know, is there life very near her 
in our neighborhood of stars, and that is the question that we 
are really addressing for real for the first time.
    Dr. Voytek. On behalf of the biologists, I think it is fine 
to speculate. We think that life takes over any chance it gets, 
and so we believe there is a high probability, and I think that 
one of the amazing things about our own planet is whether they 
are looking at New York or some small town in Indiana, the 
diversity of life here and the way that we have chosen to live 
our lives is just phenomenal, and I think it goes all the way 
down from humans to microbes.
    Dr. Dick. One of the great things about finding the other 
planets is that it corroborates what many of us have viewed as 
a guiding principle that what has happened here in our own 
solar system has happened elsewhere. A lot of people didn't 
believe that for a long time until 20 years ago when we started 
to find the planets, and now we find that they are everywhere. 
So it is another step, of course, to life and an even bigger 
step to intelligence but I think the guiding principle holds 
that what has happened here will happen elsewhere in this huge 
universe.
    Mr. Hall. I yield back.
    Chairman Smith. Thank you, Mr. Hall, a good question to end 
with, and let me thank you all for being here today. This has 
been just--oh, I am sorry, the gentleman from Utah, Mr. 
Stewart.
    Mr. Stewart. I have been patiently waiting. Mr. Chairman, I 
assume you are yielding?
    Chairman Smith. I recognized you, I thought.
    Mr. Stewart. Thank you, sir.
    Chairman Smith. We will even give you an extra minute for 
the oversight.
    Mr. Stewart. Well, thank you, and it has been interesting, 
and Mr. Hall actually jumped on something that I wanted to 
maybe conclude with, and before I do, I thank the witnesses 
once again, the panelists. It has been--it is fun to hear 
something and not to leave a hearing frustrated or like you 
want to throttle the other side like we do in some of our 
hearings of course is overly politicized, and I appreciate, you 
know, the recognition that it is in our human nature to explore 
and to discover.
    I want to come back and just be more specific, if I could. 
Just very quickly, based on your experience, based on your 
training and kind of your gut, do you think it is even 
conceivable that there is not other life somewhere in the 
universe? Is it even possible?
    Dr. Dick. It is conceivable, but I mean, we really don't 
know. This is why it would be such a great thing to find life 
on Mars because if you find even microbial life on Mars or that 
sort of thing at a low level, which is independent at the 
beginning at life, an independent genesis, that means that life 
began on two planets very close together where conditions were 
possible, and you can from that extrapolate out to the rest of 
the universe. But it is possible if we don't find life on Mars 
and eventually over the years don't find life anywhere else 
that it either doesn't exist or it is very rare. Now, you can 
define ``rare'' yourself. If one out of a billion stars in our 
galaxy has life, then you still have 400 planets with life on 
them, so----
    Mr. Stewart. Well, and I want to go kind of quickly on this 
because I am actually trying to get to a point. Do you believe 
that there is life out there, Dr. Dick?
    Dr. Dick. Yes, I do.
    Mr. Stewart. Okay. Dr. Seager?
    Dr. Seager. Yes.
    Mr. Stewart. Okay.
    Dr. Voytek. Yes.
    Mr. Stewart. Okay. I think most of us do. I mean, and you 
look--as you have indicated here, you look at the numbers, it 
is impossible almost--okay, forgive me for using 
``inconceivable'' but it just seems essentially that there 
would have to be somewhere.
    And then kind of the presumption here of this hearing is 
that eventually we are going to discover each other whether we 
discover them or they discover us or however that process might 
be, and I think in a lot of these conversations we assume that 
the discovery might be that we find some basic form of life, 
something, you know, not at all like us, I mean, bacteria or 
microbes or whatever there might be, but it is possible as 
well, isn't it, that we find a more sophisticated form of life? 
Is that true?
    Dr. Dick. Yes.
    Dr. Voytek. Yes.
    Mr. Stewart. Okay. Again, it would have to be at least 
possible.
    Dr. Dick. I will just say that my view is that microbial 
life would be more abundant than intelligent life because it is 
harder to get to intelligence, but on the other hand, you have 
these vast scales of time that have evolved also.
    Mr. Stewart. Yeah, exactly.
    Dr. Seager. There is a chance that intelligent life is very 
rare and not within our sphere to communicate with.
    Mr. Stewart. And that is actually my next question, and 
that is, what--let us assume that we find life. What do we do 
then? I mean, do we--do you have conversations about what the 
next step is? Are there any conversations about how we would 
attempt to communicate with life, or how does that change 
things for us in the way we view ourselves?
    Dr. Voytek. I know that----
    Mr. Rohrabacher. We do that with Twitter.
    Mr. Stewart. No, this is intelligent life.
    Dr. Voytek. We certainly discuss what would be the 
implications for society, you know, what are the philosophical 
ramifications, the religious ramifications, and we have funded 
studies through the dialog on science and ethics and religion, 
through the AAAS, and so we think about those aspects. I think 
that--and I will say that--and I don't know about if we have 
thought about how to communicate or invite them home for dinner 
or what, but----
    Mr. Stewart. So that really isn't either of your--it is not 
within your realms of considering what we do after we discover 
it? Is that true? Or do you consider that?
    Dr. Seager. I don't know if it is the best place for us to 
talk about it because this is one of the things that is sort of 
in its infancy and maybe even a bit marginal, but people do 
talk about it. Maybe you send up an ever bigger space 
telescope, 50-meter telescope and find more. We need to get 
pictures and detail of the planet. There are people here on our 
planet now in our country who want to be able to send a robotic 
probe to another star with a planet. It would take a very long 
time to figure out how to do that and to actually get there. 
But there are conversations going on. They are just not at a 
really formal or well-articulated level.
    Dr. Voytek. With the exception of the fact that since 
probabilistically, we believe it is likely we will find 
microbial life. People in my field are extremely interested in 
getting a sample of that and being able to immediately compare 
it to what life is like here and start abstracting more 
information about exactly what life is, how do we define it, 
how is it different, what have they learned on that planet that 
makes it survive there, what can we learn in our own system. I 
think that there is a plan as a comparative finding a species 
or another example and so we----
    Dr. Dick. This is exactly what I am working on at the 
Library of Congress for my year right now. And I would also say 
that there are protocols, official protocols, which have 
actually gone through the United Nations about what happens if 
you find extraterrestrial intelligence. Basically the plan is 
to confirm it first and then tell everybody, not keep any 
secrets.
    Mr. Stewart. Okay. And that would be interesting, wouldn't 
it, if some people knew and others didn't.
    Dr. Dick. Right.
    Mr. Stewart. And as interesting as it is to talk about the 
discovery, I think the more fun conversation is what happens 
after that and what we do with that information.
    Thank you, and Mr. Chairman, thank you for allowing me the 
opportunity.
    Chairman Smith. Thank you, Mr. Stewart, good questions.
    Thank you again to the witnesses for your attendance today 
and for speaking about such an interesting and fascinating 
subject. I think you have enlightened us all, and we look 
forward to staying in touch with you about the issues involved.
    So thank you again. We stand adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Mary Voytek

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Dr. Sara Seager

[GRAPHIC] [TIFF OMITTED] T6895.032

[GRAPHIC] [TIFF OMITTED] T6895.033

[GRAPHIC] [TIFF OMITTED] T6895.034

[GRAPHIC] [TIFF OMITTED] T6895.035

[GRAPHIC] [TIFF OMITTED] T6895.036

Responses by Dr. Steven Dick

[GRAPHIC] [TIFF OMITTED] T6895.028

[GRAPHIC] [TIFF OMITTED] T6895.029

[GRAPHIC] [TIFF OMITTED] T6895.030

[GRAPHIC] [TIFF OMITTED] T6895.031

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
